No. ____________

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
__________________
HERBERT JONATHAN CASTILLO JUAREZ ,
And
PAOLA VALENZUELA AREVALO,
Petitioners,
V.

UNITED STATES OF AMERICA,
Respondent.
INDEX TO APPENDIX

APPENDIX A: Opinion of the United States Court of Appeals for
the Eleventh Circuit United States v. Juarez ,
2021 U.S. App. LEXIS 9983, 2021 WL
1291133 (11th Cir. 2021)

APPENDIX B: Statutory Excerpts from Title 21 § 841 and
Title 21 §960

APPENDIX A.
Opinion of the
United States Court of Appeals for
the Eleventh Circuit
United States v. Juarez ,
2021 U.S. App. LEXIS 9983, 2021 WL
1291133 (11th Cir. 2021)

APPENDIX B:
Statutory Excerpts from
Title 21 §841 and
Title 21 §960.

TITLE 21.
§ 841. Prohibited Acts.
(a) Unlawful acts. Except as authorized by this title, it shall be
unlawful for any person knowingly or intentionally—
(1) to manufacture, distribute, or dispense, or possess with intent to
manufacture, distribute, or dispense, a controlled substance; or
....
(b) Penalties. Except as otherwise provided in section 409, 418, 419, or
420 [21 USCS § 849, 859, 860, or 861], any person who violates
subsection (a) of this section shall be sentenced as follows:
(1)(A) In the case of a violation of subsection (a) of this section
involving—
(i) 1 kilogram or more of a mixture or substance containing a detectable
amount of heroin;
(ii) 5 kilograms or more of a mixture or substance containing a
detectable amount of—
(I) coca leaves, except coca leaves and extracts of coca leaves from which
cocaine,
ecgonine, and derivatives of ecgonine or their salts have been removed;
(II) cocaine, its salts, optical and geometric isomers, and salts of
isomers;
...
such person shall be sentenced to a term of imprisonment which may
not be less than 10 years or more than life and if death or serious bodily
injury results from the use of such substance shall be not less than 20
years or more than life, a fine not to exceed the greater of that
authorized in accordance with the provisions of title 18, United States
Code, or $10,000,000 if the defendant is an individual or $50,000,000 if
the defendant is other than an individual, or both.

(B) In the case of a violation of subsection (a) of this section involving—
(i) 100 grams or more of a mixture or substance containing a detectable
amount of heroin;
(ii)500 grams or more of a mixture or substance containing a detectable
amount of—
(I)coca leaves, except coca leaves and extracts of coca leaves from which
cocaine, ecgonine, and derivatives of ecgonine or their salts have been
removed;
(II)cocaine, its salts, optical and geometric isomers, and salts of isomers;
...
such person shall be sentenced to a term of imprisonment which may
not be less than 5 years and not more than 40 years and if death or
serious bodily injury results from the use of such substance shall be not
less than 20 years or more than life, a fine not to exceed the greater of
that authorized in accordance with the provisions of title 18, United
States Code, or $5,000,000 if the defendant is an individual or
$25,000,000 if the defendant is other than an individual, or both.
(C) In the case of a controlled substance in schedule I or II, gamma
hydroxybutyric acid (including when scheduled as an approved drug
product for purposes of section 3(a)(1)(B) of the Hillory J. Farias and
Samantha Reid Date-Rape Drug Prohibition Act of 1999 [21 USCS §
812 note]), or 1 gram of flunitrazepam, except as provided in
subparagraphs (A), (B), and (D), such person shall be sentenced to a
term of imprisonment of not more than 20 years and if death or serious
bodily injury results from the use of such substance shall be sentenced
to a term of imprisonment of not less than twenty years or more than
life, a fine not to exceed the greater of that authorized in accordance
with the provisions of title 18, United States Code, or $1,000,000 if the
defendant is an individual or $5,000,000 if the defendant is other than
an individual, or both.

TITLE 21 USC § 960. Prohibited Acts
(a) Unlawful acts. Any person who—
(1) contrary to section 305, 1002, 1003, or 1007 [21 USCS § 825, 952,
953 or 957], knowingly or intentionally imports or exports a controlled
substance,
(2) contrary to section 1005 [21 USCS § 955], knowingly or intentionally
brings or possesses on board a vessel, aircraft, or vehicle a controlled
substance, or
(3) contrary to section 1009 [21 USCS § 959], manufactures, possesses
with intent to distribute, or distributes a controlled substance, shall be
punished as provided in subsection (b).

(b) Penalties.
(1) In the case of a violation of subsection (a) of this section involving—
(A)1 kilogram or more of a mixture or substance containing a detectable
amount of heroin;
(B) 5 kilograms or more of a mixture or substance containing a
detectable amount of—
(i) coca leaves, except coca leaves and extracts of coca leaves from which
cocaine, ecgonine,
and derivatives of ecgonine or their salts have been removed;
(ii) cocaine, its salts, optical and geometric isomers, and salts or
isomers;
...
the person committing such violation shall be sentenced to a term of
imprisonment of not less than 10 years and not more than life and if
death or serious bodily injury results from the use of such substance
shall be sentenced to a term of imprisonment of not less than 20 years

and not more than life, a fine not to exceed the greater of that
authorized in accordance with the provisions of title 18, United States
Code, or $10,000,000 if the defendant is an individual or $50,000,000 if
the defendant is other than an individual, or both.

(2) In the case of a violation of subsection (a) of this section involving—
(A) 100 grams or more of a mixture or substance containing a detectable
amount of heroin;
(B) 500 grams or more of a mixture or substance containing a detectable
amount of—
(i) coca leaves, except coca leaves and extracts of coca leaves from which
cocaine, ecgonine,
and derivatives of ecgonine or their salts have been removed;
(ii) cocaine, its salts, optical and geometric isomers, and salts or
isomers;
...
the person committing such violation shall be sentenced to a term of
imprisonment of not less than 5 years and not more than 40 years and if
death or serious bodily injury results from the use of such substance
shall be sentenced to a term of imprisonment of not less than twenty
years and not more than life, a fine not to exceed the greater of that
authorized in accordance with the provisions of title 18, United States
Code, or $5,000,000 if the defendant is an individual or $25,000,000 if
the defendant is other than an individual, or both.
(3) In the case of a violation under subsection (a) of this section
involving a controlled substance in schedule I or II, gamma
hydroxybutyric acid (including when scheduled as an approved drug
product for purposes of section 3(a)(1)(B) of the Hillory J. Farias and
Samantha Reid Date-Rape Drug Prohibition Act of 1999 [21 USCS §
812 note]), or flunitrazepam, the person committing such violation
shall, except as provided in paragraphs (1), (2), and (4), be sentenced to

a term of imprisonment of not more than 20 years and if death or
serious bodily injury results from the use of such substance shall be
sentenced to a term of imprisonment of not less than twenty years and
not more than life, a fine not to exceed the greater of that authorized in
accordance with the provisions of title 18, United States Code, or
$1,000,000 if the defendant is an individual or $5,000,000 if the
defendant is other than an individual, or both.

